OFFICE OF INSPECTOR GENERAL


AUDIT OF COMPLIANCE OF
SELECTED USAID WEBSITES
WITH SPECIFIC
REQUIREMENTS OF SECTION
207(F) OF THE
E-GOVERNMENT ACT OF 2002
AUDIT REPORT NO. A-000-07-003-P
July 16, 2007




WASHINGTON, DC
Office of Inspector General


July 16, 2007

MEMORANDUM

TO:                  Chief Information Officer, David C. Anewalt
                     LPA/PIPOS Director, Joseph A. Fredericks

FROM:                IG/A/ITSA Director, Melinda G. Dempsey /s/

SUBJECT:             Audit of Compliance of Selected USAID Websites with Specific Requirements of
                     Section 207(f) of the E-Government Act of 2002 (Audit Report
                     No. A-000-07-003-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your response in its entirety in Appendix II.

This report contains eight recommendations to help USAID improve the management and
oversight of Agency and Agency-funded websites. Based on your response, management
decision has been reach on recommendations no. 1, 2, 3, 4, 5, 6, 7, and 8. Please notify the
Bureau for Management’s Audit, Office of the Chief Financial Officer, Performance and
Compliance Division when final action is completed.

Again, I want to express my sincere appreciation for the cooperation and courtesies extended to
my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective................................................................................................................ 4

Audit Findings ................................................................................................................. 5

Did selected USAID websites meet specific requirements of section 207(f) of the E-
Government Act of 2002?

          USAID/Washington and Mission Websites Did Not Always Reside on
          the .gov Domain .................................................................................................... 6

          USAID’s Funded Websites Were Not Always Marked with a Disclaimer
          Statement .............................................................................................................. 8

          Mission Subdomains of USAID’s Website Did Not Always Comply with
          Federal Requirements and Agency Policy ............................................................ 9

          Mission Subdomains of USAID’s Public Website Did Not Always Label
          Their Files That Require Additional Software or Plug-Ins ................................... 12

          USAID Did Not Compile an Inventory of USAID-funded Websites ..................... 14

Evaluation of Management Comments ....................................................................... 16

Appendix I – Scope and Methodology ........................................................................ 17

Appendix II – Management Comments ....................................................................... 19
SUMMARY OF RESULTS
The Office of Inspector General in Washington, D.C., initiated this audit to determine
whether USAID met specific requirements of section 207(f) of the E-Government Act of
2002, “Agency Websites.” That section requires the Director, Office of Management and
Budget (OMB), to promulgate guidance for Federal websites. In response, OMB issued
Memorandum No. M-05-04, “Policies for Federal Agency Public Websites,” December 17,
2004. (See page 3.)

Overall, this audit found that USAID websites met specific requirements section 207(f) of
the E-Government Act of 2002, except that USAID did not implement several
requirements to ensure its public websites were citizen-oriented and visitor-friendly, as
follows. (See page 5.)

•       USAID/Washington and Mission websites did not always reside on the .gov
        domain. 1 (See pages 6-8.)

•       USAID’s funded websites 2 were not always marked with a disclaimer statement.
        (See pages 8-9.)

•       Mission subdomains 3 of USAID’s website did not always comply with Federal
        requirements and USAID’s policy. (See pages 9-12.) Specifically:

        o        Required metadata, 4 which enables the search engine to retrieve search
                 results, were not always included in web content source code. (See
                 pages 10-11.)

        o        Date stamp was not always displayed on the webpage. (See page 11.)

        o        Users were not always notified when leaving government websites. (See
                 page 12.)




1
   Domains are web addresses that are used to help find websites on the Internet. According to OMB
Memorandum No. M-5-04, Federal agencies must use only .gov, .mil, or Fed.us domains. USAID selected
.gov to be the domain for Agency websites that present official Agency information. USAID websites are
maintained on www.usaid.gov.
2
  USAID’s funded websites are websites fully or partially financed by USAID under acquisition (e.g.,
contracts) and assistance (e.g. grants and cooperative agreements) instruments.
3
  USAID mission websites are subdomains of www.usaid.gov and follow the format countryname.usaid.gov,
such as http://bolivia.usaid.gov.

4
 Among other things, metadata provides information about the purpose, language, author, and responsible
agents associated with a webpage, so the webpage can be identified by the search engines.




                                                                                                     1
•      Mission subdomains of USAID’s public website did not always label their files
       that require additional software or plug-ins. (See pages 12-14.)

•      USAID did not compile an inventory of Agency-funded websites. (See pages 14-
       15.)

These weaknesses occurred primarily because USAID did not always monitor Agency
websites and provide oversight of Agency-funded websites. As a result, USAID’s
websites were not always citizen-oriented and visitor-friendly. Therefore, we made eight
recommendations to help USAID improve the management of Agency websites. (See
pages 8 - 15.)

USAID management agreed to take corrective action on all eight recommendations in
the report. Based on management’s response, management decisions have been
reached on recommendations no. 1, 2, 3, 4, 5, 6, 7, and 8. (See page 16.)




                                                                                      2
BACKGROUND
The E-Government Act of 2002 (Public Law No.107-347) was issued to (among other
things):

•      Promote the use of the Internet across Government agencies to provide citizen-
       oriented Government information.

•      Transform agency operations by using, where appropriate, best practices from
       public and private sector organizations.

•      Provide enhanced access to Government information and services in a manner
       consistent with laws regarding records retention, access for persons with
       disabilities, and other relevant laws.

Section 207(f) of the E-Government Act of 2002, “Agency Websites,” required that the
Director, Office of Management and Budget (OMB), promulgate guidance for Federal
websites.

In response to section 207(f) of the E-Government Act of 2002, the Office of Management
and Budget (OMB) issued Memorandum No. M-05-04, “Policies for Federal Agency Public
Websites,” December 17, 2004. According to that memorandum:

       Federal agency public websites are information resources funded in whole
       or in part by the Federal government and operated by an agency,
       contractor, or other organization on behalf of the agency. They present
       government information or provide services to the public or a specific non-
       Federal user group and support the proper performance of an agency
       function.

According to M-05-04, the head of each federal agency is required to (among other things):

•      Establish and maintain information dissemination product inventory, priorities,
       and schedules.

•      Ensure information quality.

•      Establish and enforce Agency-wide linking policies.

•      Communicate with the Public, State, and Local Governments.

•      Provide the ability to search its public websites.

•      Use approved domains.

•      Maintain accessibility.

•      Manage records.



                                                                                         3
The memorandum further states that the management of agencies' public websites should
already be in compliance with Federal information resource management law and policy.
However, OMB expected agencies to become fully compliant with new requirements
imposed by the memorandum by December 31, 2005.

Furthermore, in June 2003, OMB established the Interagency Committee on Government
Information (ICGI), as required by section 207 of the E-Government Act of 2002. The
ICGI established several workgroups to make recommendations on issues related to
federal public websites.


AUDIT OBJECTIVE
This audit was added to the Office of Inspector General’s annual audit plan to answer
the following question:

       Did selected USAID websites meet specific requirements of section
       207(f) of the E-Government Act of 2002?

For this audit, the specific requirements are (1) establishing and maintaining information
dissemination, product inventory, priorities, and schedules; (2) ensuring information quality;
(3) establishing and enforcing Agency-wide linking policies; (4) providing the ability to
search its public websites; (5) using approved domains; (6) communicating with the Public,
State, and Local Governments; (7) maintaining accessibility; and (8) managing records.

A description of our scope and methodology is contained in Appendix I.




                                                                                            4
AUDIT FINDINGS
Selected USAID websites met specific requirements of section 207(f) of the E-
Government Act of 2002, except that USAID did not implement several requirements to
ensure its public websites were citizen-oriented and visitor-friendly.

Some of the positive findings were as follows.

   •   Automated Directives Systems (ADS 557), dated July 7, 2000, is USAID’s official
       policy directive and contains required procedures which outline how Agency
       information is distributed to the public. It also details how to respond to request
       from the public for information about USAID’s programs and activities. ADS 557
       was updated on July 14, 2006, to include policy for information posted to the
       World Wide Web, which is readily available to the general public. The updated
       version also describes the responsibilities of USAID’s officials for oversight of the
       public websites. Specifically, the Director of Legislative and Public Affairs/Public
       Information, Production and Online Services (LPA/PIPOS), was designated to
       manage and control the operations and the content of USAID’s websites in
       coordination with other offices. In addition, the Bureau for Management,
       Enabling Technologies and Integration, is responsible for technical services for
       websites.

   •   In response to OMB M-05-04, LPA/PIPOS disseminated a policy notice titled
       “USAID’s Websites and .gov Domain,” on November 28, 2005. The policy
       requires material on websites that provide official Agency information and are
       accessible to the public to be transferred to www.usaid.gov no later than
       December 31, 2005.

   •   USAID’s XWEB guidance provides online guidance, requirements, and tools on
       how to develop a website to comply with Agency policy and Federal regulations.

   •   USAID developed and implemented its inventory of website content as required
       by Section 207(f)(2) of the E-Government Act of 2002, including the website
       publications priorities and schedules.

   •   USAID provided required information on its homepage in accordance with
       section 207(f)(2) of the E-Government Act of 2002. Among other things, the
       public could find on USAID’s homepage the Agency Strategic Plan for Fiscal
       Years 2004 to 2009; the Agency annual performance plans; descriptions of
       Agency organizational structure, mission and statutory authority; and its point of
       contact for small businesses, as required by the Small Business Paperwork
       Relief Act of 2002.

Nonetheless, USAID did not implement several requirements to ensure its public
websites are citizen-oriented and visitor-friendly. Specifically:




                                                                                          5
•         USAID/Washington and Mission websites did not always reside on approved
          .gov domains. 5

•         USAID’s funded websites 6 were not always marked with a disclaimer statement.

•         Mission subdomains 7 of USAID’s website did not always comply with Federal
          requirements and USAID’s policy. Specifically:

          o      Required metadata, 8 which enables the search engine to retrieve search
                 results, were not always included in web content source code.

          o      Date stamp was not always displayed on the webpage.

          o      Users were not always notified when leaving government websites.

•         Mission subdomains of USAID’s public website did not always label their files
          that require additional software or plug-ins.

•         USAID did not compile an inventory of Agency-funded websites.

The following sections discuss these issues in detail.


USAID/Washington and Mission Websites
Did Not Always Reside on the .gov Domain

    Summary:       USAID/Washington and Mission websites did not always reside on the
    .gov domain, as required. This problem occurred because, according to an
    LPA/PIPOS official, the websites were launched and resided on non-.gov domains
    before the requirements were issued that government websites reside on .gov
    domains. Further, LPA/PIPOS was not aware that those websites existed. As a result
    of not always having USAID mission websites on U.S. government domains, USAID
    may mislead users to believe the websites are not official federal public websites, thus
    affecting their confidence in the contents of the websites. In addition, not residing on
    the U.S. government domains excludes the websites from the USA.gov directory list,
    which serves as the “homepage” for the entire U.S. government by providing a

5
   Domains are web addresses that are used to help people find websites on the Internet. According to
OMB Memorandum No. M-05-04, Federal agencies must use only .gov, .mil, or Fed.us domains. USAID
selected .gov to be the domain for Agency websites that present official Agency information. USAID
websites are maintained on www.usaid.gov.
6
  USAID’s funded websites are websites fully or partially financed by USAID under acquisition (e.g.,
contracts) and assistance (e.g. grants and cooperative agreements) instruments.
7
  USAID mission websites are subdomains of www.usaid.gov and follow the format countryname.usaid.gov,
such as http://bolivia.usaid.gov.

8
 Among other things, metadata provides information about the purpose, language, author, and responsible
agents associated with a webpage, so the webpage can be identified by the search engines.




                                                                                                     6
 directory of U.S. government websites and a government-wide search index. It allows
 the public to access a vast amount of information across the Federal government.


On December 17, 2004, Office of Management and Budget (OMB) issued Memorandum
M-05-04, “Policies for Federal Agency Public Websites.”         According to that
Memorandum, Federal agency public websites must use only .gov, .mil, or Fed.us
domains unless the agency head explicitly determines another domain is necessary for
the proper performance of an agency function.

Automated Directives System (ADS) 557, “Public Information,” revised on July 14, 2006,
requires USAID/Washington and Mission websites to reside on approved .gov domains.
These websites are assigned a subdomain Uniform Resource Locator (URL) by
LPA/PIPOS, which is in the format "country.usaid.gov" on USAID’s external website.

However, considering the geographical diverseness, technical differences, and
administration issues, ADS 557 stipulated that standalone funded websites must not
reside on .gov domains because they do not speak authoritatively on behalf of the
Agency or the U.S. Government. Standalone funded websites are financed by USAID
under acquisition instruments (contracts) and assistance instruments (grants and
cooperative agreements).

Based on a search using a common search engine, the following 13 non-.gov websites
appear to disseminate official U.S. government information, and thus need to reside on
usaid.gov subdomain). However, there may be other websites that were not identified
by the search.

       •   USAID/Mali (http://mali.viky.net/usaid/cgi-bin/index.pl)
       •   USAID/Mali (http://www.usaidmali.org/)
       •   USAID/Uganda (http://www.usaid.or.ug/)
       •   USAID/Kenya (http://www.usaidkenya.org/)
       •   USAID/Asia and Near East (http://ane-environment.net/)
       •   USAID/East Africa (http://www.usaidredso.org)
       •   USAID/East Timor (http://www.usaideasttimor.net/)
       •   USAID/Serbia (http://www.usaid.org.yu/code/navigate.php?Id=8)
       •   USAID/Senegal (http://www.usaid-sn.org/)
       •   USAID/Jordan (http://www.usaidjordan.org/)
       •   USAID/Bosnia/Herzegovina (http://www.usaid.ba/)
       •   USAID/Bolivia (http://www.usaidbolivia.org.bo/)
       •   USAID Visa Compliance System
           (htps://www.vcs.usaid.org) (http://trainet.usaid.org/)

An LPA/PIPOS official confirmed that these websites should reside on the usaid.gov
subdomain. According to that Official, the above websites were launched and resided
on non-.gov domains before OMB Memorandum M-05-04 and USAID’s policy on the
.gov domain (discussed above) were issued.            Although the websites are now
subdomains of USAID’s public websites (www.usaid.gov), for unknown reasons, the
information on non-.gov domains remained active and publicly available. In addition,
according to that official, he was not aware that the websites existed. Therefore, they
could not work with the website owners to determine how to treat the websites.


                                                                                     7
As a result of not always having USAID/Mission websites on U.S. government domains,
specifically the .gov domain, USAID causes confusion to the public because it may
mislead them to believe the websites are not official federal public websites, thus
affecting their confidence in the contents of the websites. In addition, not residing on
U.S. government domains excludes the websites from the USA.gov directory list
because they cannot be searched by the USA.gov search engine, which serves as the
“homepage” for the entire U.S. government by providing a directory of U.S. government
websites and a government-wide search index. It allows the public to access a vast
amount of information across the Federal government. Therefore, we are making the
following recommendations.

       Recommendation No. 1: We recommend the Bureau for Legislative and
       Public Affairs/Public Information, Production and Online Services, work
       with owners of the following websites to assess which should be shut
       down and take appropriate actions:

       •   USAID/Mali (http://mali.viky.net/usaid/cgi-bin/index.pl)
       •   USAID/Mali (http://www.usaidmali.org/)
       •   USAID/Uganda (http://www.usaid.or.ug/)
       •   USAID/Kenya (http://www.usaidkenya.org/)
       •   USAID/Asia and Near East (http://ane-environment.net/)
       •   USAID/East Africa (http://www.usaidredso.org)
       •   USAID/East Timor (http://www.usaideasttimor.net/)
       •   USAID/Serbia (http://www.usaid.org.yu/code/navigate.php?Id=8)
       •   USAID/Senegal (http://www.usaid-sn.org/)
       •   USAID/Jordan (http://www.usaidjordan.org/)
       •   USAID/Bosnia/Herzegovina (http://www.usaid.ba/)
       •   USAID/Bolivia (http://www.usaidbolivia.org.bo/)
       •   USAID Visa Compliance System
           (htps://www.vcs.usaid.org) (http://trainet.usaid.org/)

       Recommendation No. 2: We recommend that the Bureau for Legislative
       and Public Affairs, Production and Online Services, conduct an Internet
       search to determine whether other websites exist that present USAID’s
       official information. In addition, based on that search, Bureau for
       Legislative and Public Affairs, Production and Online Services, needs to
       work with website owners to assess which should be shut down and take
       appropriate action.


USAID’s Funded Websites Were Not
Always Marked With a Disclaimer Statement
Summary:    USAID’s funded websites were not always marked with a statement to
disclaim USAID’s responsibility of their website contents, as required. This problem
occurred because USAID did not provide adequate oversight of Agency funded
websites. As a result of not displaying a disclaimer statement on the websites, users
may be misled into believing that those websites provide official USAID information.



                                                                                      8
ADS 557 requires that funded websites (whether under acquisition or assistant
instruments) be marked on the index page and every major entry point with a disclaimer
that states:

       The information provided on this Web site is not official U.S. Government
       information and does not represent the views or positions of the U.S.
       Agency for International Development or the U.S. Government.

However, 14 out of 26 websites (54 percent) tested did not contain such a disclaimer
statement in their homepage. Those problem websites were:

       http://www.ict-eg.net/Auto/index_html
       http://carpe.umd.edu/index.asp
       http://www.measuredhs.com/
       http://www.mostproject.org/
       http://www.ortmap.org/
       http://www.sada.usaid.org.yu/en/index.cfm
       http://www.sari-energy.org/whoweare.html
       http://www.epdc.org
       http://www.greencom.org
       http://www.ebiz.org.mk
       http://www.netmarkafrica.org
       http://www.aed.hr/en
       http://www.biocooplubnan.com./
       http://www.pspiqc.org/

This problem occurred because USAID did not provide adequate oversight of Agency-
funded websites. In addition, according to an Agency official, USAID did not have staff
or funding to monitor all Agency-funded websites. As a result of not displaying a
disclaimer statement on the websites, users may be misled into believing that those
websites provide official USAID information. Therefore, we are making the following
recommendation.

       Recommendation No. 3: We recommend that USAID’s Bureau for
       Legislative and Public Affairs/Public Information, Production and Online
       Services, implement a process to provide oversight of USAID-funded
       websites to ensure those websites have a disclaimer statement
       repudiating USAID’s responsibility of the website contents.


Mission Subdomains of USAID’s Website Did Not Always
Comply with Federal Requirements and Agency Policy

Summary: Mission subdomains of USAID’s website did not always (1) include metadata
in the website coding, (2) include a date stamp on the webpage, and (3) notify users
when leaving the government website, as required. These problems occurred because
USAID officials did not adequately monitor USAID’s website. In addition, according to
Agency officials, owners of mission websites were not always aware of Agency policies
and guidance. These weaknesses may impair the capability of search functions and the


                                                                                     9
Agency's ability to maintain and track the content of its website. In addition, visitors may
mistakenly believe that information from the non-government sites constitute the position
and views of the Federal government. Finally, visitors’ confidence in the website may be
impaired, as they cannot tell which website contents are current.

        Mission Subdomains of USAID’s Website Did Not Always Utilize The
Required Metadata Elements - OMB Memorandum M-05-04, section 5A, requires
agencies to “…assist the public in locating government information.” In addition,
according to USAID’s XWeb policy, “Technical Regulations for USAID Mission Web
Sites Hosted Outside of USAID/Washington,” 9 USAID/Washington and mission
subdomains of USAID’s external website are required to have six metadata elements:
(1) responsible official, (2) author, (3) description, (4) keywords, (5) date posted and
(6) language. Metadata plays a significant role in helping the search engines retrieve
relevant search results.

However, owners of mission subdomains did not always carry out the policy.                  For
example:

•      7 out of 12 (58 percent) mission subdomains of USAID’s website tested did not
       have the "language" element, which is used to describe the primary intended
       audience of the page:

               USAID/Albania                  http://www.albania.usaid.gov
               USAID/Ethiopia                 http://ethiopia.usaid.gov/
               USAID/Mali                     http://mali.usaid.gov/
               USAID/Morocco                  http://www.usaid.gov/ma/
               USAID/Nicaragua                http://nicaragua.usaid.gov/
               USAID/Peru                     http://peru.usaid.gov/
               USAID/Philippines              http://philippines.usaid.gov/

•      3 out of 12 (25 percent) mission subdomains of USAID’s website tested were
       missing two or more required metadata elements:

               USAId/Lebanon                  http://lebanon.usaid.gov/
               USAID/Rwanda                   http://rwanda.usaid.gov
               USAID/Timore leste             http://timor-leste.usaid.gov/

Although we were not able to determine the root cause of these problems, when the
incidents were brought to the attention of an LPA/PIPOS official, he identified several
possible contributing factors to the problem. First, local web masters who administered
USAID mission websites may not know about the metadata requirements. Second, in
some Missions, different web technologies were used that automatically code the
website contents—not providing an option to modify the source code to include the
required elements of metadata. Nevertheless, the Agency official acknowledged that it
was his office’s responsibility to work with the owners of the website to correct the
problem.



9
  USAID’s XWeb policy is a mandatory reference to ADS 557, and therefore, incorporated by
reference.


                                                                                            10
Not using required metadata elements may impair the capability of search functions and
the Agency's ability to maintain and track content on its website. Specifically, it may
(1) impair search relevancy and accuracy, (2) provide no audit trail concerning who
created the information and when it was created, and (3) cause duplicative and obsolete
content from being identified. Therefore, we are making the following recommendation.

       Recommendation No. 4: We recommend that USAID’s Bureau for
       Legislative and Public Affairs/Public Information, Production and Online
       Services, take actions to ensure that mission subdomain website owners
       are aware of the metadata requirements and add metadata where
       needed.


         Mission Subdomains of USAID’s Website Did Not Always Contain a Date
Stamp on Their Webpages - OMB Memorandum M-05-04, section 1A, requires that
Agencies “disseminate information to the public in a timely, equitable, efficient and
appropriate manner.” In addition, section 2A requires that agencies maximize the
“quality, objectivity, utility, and integrity of information and services provided to the
public.”

According to USAID officials, USAID implemented the above guidance by requiring a
date stamp (in the format mm/dd/yyyy) on every webpage.       By providing the date
stamp, it shows visitors the last time changes were made to the webpage and, thus,
provides some level of assurance that the webpage provides timely and accurate
information.

However, of the 12 USAID/Missions subdomains reviewed, five (42 percent) did not
have a date stamp. Those five websites were:

       USAID/Ethiopia                http://ethiopia.usaid.gov/
       USAID/Lebanon                 http://lebanon.usaid.gov
       USAID/Mali                    http://mali.usaid.gov
       USAID/Rwanda                  http://rwanda.usaid.gov/democracy%20gov.html
       USAID/Timor-Leste             http://timor-leste.usaid.gov/EG.htm

This problem occurred because USAID did not regularly review the subdomains to
ensure they provide a date stamp showing when the page has been modified or
updated. As a result of not having the date stamp on their webpages, visitors (such as
researchers and media users) do not know whether the contents are current. Therefore,
we are making the following recommendation.

       Recommendation No. 5: We recommend that USAID’s Bureau for
       Legislative and Public Affairs/Public Information, Production and Online
       Services, implement a process to review mission subdomains of USAID’s
       website on a definitive schedule to ensure last modified date is included
       on every webpage.




                                                                                      11
       Mission Subdomains of USAID’s Website Did Not Always Notify Users When
Leaving Government Website - OMB Memorandum M-05-04, section 3A, requires
Agencies to establish and enforce explicit agency-wide linking policies, including
management controls for linking within and beyond the agency.

In addition, USAID’s Technical Regulations for the Agency’s external website requires that
all links to sites not residing on a government server must use the “goodbye” script
informing users that they are no longer on the government site. This script states:

                        You are now exiting the USAID Web Server
                             You will now be entering the site:

                            [Name of a Particular Site is Here]

                             Thank you for visiting USAID
                 We hope you found your visit informative and enjoyable.
               Note: References obtained from this server do not constitute
                              endorsement or warranty.

However, USAID did not completely comply with its policy in notifying users when exiting
government sites. Specifically, of the 12 mission subdomains reviewed, 4 (33 percent) did
not notify users when they were leaving the government site and linking to a non-
government site. Listed below are the four subdomains:

       http://ecuador.usaid.gov/dr/
       http://www.usaid.gov/sv/
       http://www.usaid.gov/ht/
       http://moldova.usaid.gov/

These weaknesses occurred because LPA did not adequately monitor mission
subdomains. Adequate monitoring will help ensure that mission subdomains that do not
use the good-bye script are identified and corrected. As a result of not notifying users when
they are leaving a government website, users could mistakenly take the information from
the non-government site to be the positions and views of the Federal government.
Therefore, we are making the following recommendation.

       Recommendation No. 6: We recommend that USAID’s Bureau for
       Legislative and Public Affairs/Public Information, Production and Online
       Services, implement a process to monitor mission subdomains of
       USAID’s website to ensure that they use the good-bye script to inform
       users when leaving the government site, as required.


Mission Subdomains of USAID’s Public
Website Did Not Always Label Their Files That
Require Additional Software or Plug-Ins

Summary: Mission subdomains of USAID’s public website did not always include a text
description of file type and size in their files that require additional software or plug-ins,



                                                                                           12
as required. This problem occurred because USAID’s technical guidance for mission
subdomains does not address this issue. In addition, USAID officials did not adequately
monitor USAID’s website. As a result, these weaknesses may impair the capability of
search functions and the Agency's ability to maintain and track the content on its
website. In addition, this weakness may frustrate web visitors and make them less likely
to access information on USAID’s website.

OMB Memorandum M-05-04, section 1A requires that Agencies “disseminate
information to the public in a timely, equitable, efficient and appropriate manner.” In
addition, section 2A requires that agencies maximize the “quality, objectivity, utility, and
integrity of information and services provided to the public.” Choosing the appropriate
format can promote equitable access to the information and services. Finally, section 5d
states that agency public websites should provide all data in an “open, industry standard
format permitting users to aggregate, disaggregate, or otherwise manipulate and
analyze the data to meet their needs. “

In June 2003, OMB established the Interagency Committee on Government Information
(ICGI) to make recommendations on issues related to federal public websites. ICGI
recommended using a text description of the document, when linking to a document in
an alternative format. These alternate formats include, but are not limited to: Portable
Document Formats, WordPerfect, MicroSoft Word, MicroSoft PowerPoint, and statistical
data files (e.g., Structured Query Language and MicroSoft Excel). The description
should include the file name, file type, file size, and effective date.

In addition, USAID’s XWEB Technical Regulations for USAID/Washington’s external
website requires that whenever a file type other than .html is used, the file type and size
must be notated. This is key information for informing visitors (1) of the software or plug-
ins needed to view the document and (2) with slow connection speeds that have
difficulty downloading large documents.

Although the publications on mission subdomains of USAID’s website used industry
standard format in accordance with OMB’s policies, files on the following 4 of 12
subdomains reviewed (33 percent) did not include text descriptions, as required.
                                                                                         10
       http://lebanon.usaid.gov/(ynglyh55gt5pjcb0mo3rxmb3)/files/objectives.aspx
       http://rwanda.usaid.gov/democracy%20gov.html 11
       http://ukraine.usaid.gov/
       http://www.usaid.gov/ma/

This problem occurred because LPA/PIPOS did not adequately monitor to ensure files
that required additional software or plug-in on their websites were properly labeled. In
addition, unlike USAID’s XWEB Technical Regulations for USAID/Washington’s external
website (discussed above), the mission technical guidance for developing web pages
does not address this issue.



10
   The complete URL is provided to direct to the exact web pages where the problem was
identified
11
   Ibid, footnote 10



                                                                                              13
As a result of not having text description labels included in the file, web visitors may
become frustrated when trying to access or download information and less likely to
access information on the website. The Director of LPA/PIPOS acknowledged this
weakness and affirmed that his office and the mission website owners are responsible
for ensuring that files are labeled.       We, therefore, are making the following
recommendations.

       Recommendation No.7: We recommend that USAID’s Bureau for Legislative and
       Public Affairs/Public Information, Production and Online Services, implement a
       process to monitor Agency-funded websites to ensure files that require additional
       software or plug-ins provide text descriptions of the file type and file size.

       Recommendation No. 8: We recommend that USAID’s Bureau for Legislative
       and Public Affairs/Public Information, Production and Online Services, update
       technical guidance for mission websites to require labels for files that need
       additional software or plug-ins.


USAID Did Not Compile an Inventory
of USAID-funded Websites
Summary: USAID did not have an inventory of its funded websites, as required.
According to an Agency official, the problem occurred because USAID did not have staff
or funding to assemble the inventory. Not keeping a complete inventory prevents
LPA/PIPOS from providing oversight of Agency websites to ensure that they are properly
managed and controlled.

According to ADS 557, LPA/PIPOS is responsible for maintaining the inventory of
Agency-funded websites.

However, LPA/PIPOS did not maintain an inventory of Agency-funded websites.
According to an LPA/PIPOS official, he was aware of the need to assemble an inventory.
However, with limited staff resources, the Agency official felt that he could not dedicate a
person to that function, as it would be time consuming to maintain because new
websites are launched frequently.

Websites are one of the best and most cost-effective ways to reach out to a wide range
of users because it allows interested users world wide to learn about the Agency.
Accordingly, it is essential that USAID ensure information on the websites is accurate,
relevant, and user-friendly. Not keeping a complete inventory prevents USAID officials
from providing oversight of Agency websites to ensure that they are properly managed
and controlled.

In Report No.A-000-07-002-O, “Applying Agree-Upon Procedures for Assessing
USAID’s Implementation of Section 522 of the Consolidated Appropriations Act, 2005,”
dated December 19, 2006, the OIG reported that USAID did not have a complete
inventory of funded websites. The report recommended that USAID’s Chief Privacy
Officer, in collaboration with LPA/PIPOS, assemble a complete inventory of USAID-
funded websites.




                                                                                         14
In response to the report, USAID’s Chief Privacy Officer, in collaboration with
LPA/PIPOS, agreed to assemble an inventory of USAID’s funded websites by October
2007. As of the date of this report, final corrective action had not been taken on the
recommendation. Therefore, we will not make another recommendation at this time.




                                                                                   15
EVALUATION OF
MANAGEMENT COMMENTS
USAID management agreed to take corrective action on all eight recommendations in
the report. For Recommendation Nos. 1, 2, 3, 4, 5, 6, 7, and 8, USAID management
provided corrective action plans and target completion dates for each recommendation.
Therefore, we consider that management decisions have been reached for the above
recommendations.

In addition, USAID’s response states that final action was taken on June 11, 2007, for
Recommendation No. 8, which required an update of technical guidance for mission
websites to require labels for files that need additional software or plug-ins. USAID
management stated that they have provided technical guidance for mission websites on
the XWEB. However, they did not provide supporting document in their response.
Therefore, the Office of the Inspector General can not confirm whether final action has
been taken on Recommendation No. 8. Consequently, we are requesting the Director,
LPA/PIPOS, to provide USAID’s Bureau for Management, Office of the Chief Financial
Officer, Audit, Performance and Compliance Division, supporting documentation, to
determine whether final action has been taken.

USAID’s management comments are included in their entirety in Appendix II.




                                                                                    16
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General, Information Technology and Special Audits Division,
performed this audit in accordance with generally accepted government auditing
standards. The purpose of the audit was to determine whether USAID’s websites met
the following requirements of section 207(f) of the E-Government Act of 2002:

•      Established and maintained information dissemination, product inventory, priorities,
       and schedules.

•      Ensured information quality.

•      Established and enforced Agency-wide linked policies.

•      Provided the ability to search its public websites.

•      Used approved domains.

•      Communicated with the Public, State, and Local Governments.

•      Maintained accessibility.

•      Managed records.

We also assessed internal controls over each of these areas.        However, we did not
evaluate the privacy and security requirements.

Audit fieldwork was conducted at USAID headquarters in Washington, D.C., from
September 19, 2006, through March 29, 2007.


Methodology
To answer the audit objective we reviewed laws, regulations, and best practices related
to Federal websites. This included, but was not limited to, section 207(f) of the
E-Government Act of 2002; Office of Management and Budget Bulletin No. M-05-04,
“Policies for Federal Agency Public Websites” December 17, 2004; and best practices
for agency websites prescribed by the Web Managers Advisory Council.

In addition, we:

•      Analyzed USAID’s website policies, procedures, and guidance to determine
       whether they were consistent with Federal requirements and best practices.

•      Interviewed responsible Agency officials to gain an understanding of USAID’s
       implementation of requirements for its websites.


                                                                                        17
•      Used a common search engine to identify other Agency websites.

•      Selected judgmental samples of mission subdomains of USAID’s website and
       web pages as well as those funded through USAID’s acquisition and assistance
       instruments. For the items selected, we conducted tests to determine whether
       the website and/or web page met requirements.

Finally, we reviewed applicable results and recommendations in OIG:

•      Audit Report No. A-000-06-003-P, “Audit of USAID's Implementation of Key
       Components of a Privacy Program for its Information Technology Systems,”
       June 8, 2006.

•      Memorandum Report No. A-000-07-002-O, “Independent Auditor’s Report on
       Applying Agreed-Upon Procedures for Assessing USAID's Implementation of
       Section 522 of the Consolidated Appropriations Act of 2005,” December 19,
       2006.

We did not set a materiality threshold for this audit.




                                                                                18
                                                                          APPENDIX II



MANAGEMENT COMMENTS
                                               June 13, 2007



TO:           IG/A/ITSA Director Melinda G. Dempsey

FROM:         LPA/PIPOS Director, Joseph A. Fredericks

SUBJECT:    LPA/PIPOS’ response to the audit draft report of Compliance of Selected
USAID Websites with Specific Requirements of Section 207(f) of the E-Government Act
of 2002.

This memorandum serves as a response from LPA/PIPOS to the OIG draft Audit Report
no. A-000-07-00X-P, dated April 26, 2007. We appreciate the opportunity to review the
draft of the Audit Report and to provide this response.

LPA/PIPOS is committed to maintaining the highest standards of information quality and
requirements compliance for all official USAID web sites and USAID-funded web sites.
Further, we note that in some instances our internal requirements for web site quality
and compliance go well beyond the Federal government-wide standards. We are
pleased that the report recognized the efforts we have made thus far to communicate
the requirements of the E-Government Act of 2002 to necessary stakeholders within
USAID and among USAID partners. We also recognize that there is much work to be
done. This response summarizes the steps we are going to take, and in many cases
have already made, in order to ensure full compliance of USAID public websites with E-
Government requirements.

Since the OIG investigation, LPA/PIPOS has been engaged in a project to improve and
standardize the process by which new web sites are reviewed. A necessary part of this
process has been the creation of an inventory of USAID web sites.

1. USAID/Washington and Mission Websites Did Not Always Reside on Approved
.gov Domains

Recommendation No. 1: We recommend the Bureau for Legislative and Public
Affairs/Public Information, Production and Online Services, work with owners of the
following websites to assess which should be shut down and take appropriate actions:

This recommendation is confirmed by LPA/PIPOS and will be completed by September
15, 2007. We are in the process of working with owners of all of the named web sites,
and multiple others, in order to discontinue use of the non-.gov domains. As of this
response, all of the webmasters of the named sites have been contacted, and usaid.gov
subdomains have been issued for all of the sites as appropriate. In most cases, the non
.gov web domain has been shut down or is being used on a temporary basis to forward
visitors to the correct domain. LPA/PIPOS will issue an agency-wide notice immediately
after issuance of the OIG report reminding USAID missions of this requirement.


                                                                                       19
Recommendation No. 2: We recommend that the Bureau for Legislative and Public
Affairs, Production and Online Services, conduct and Internet search to determine
whether other non.gov websites exist that present USAID’s official information. In
addition, based on that search, Bureau for Legislative and Public Affairs, Production and
Online Services, needs to work with website owners to assess which should be shut
down and take appropriate action.

This recommendation is confirmed by LPA/PIPOS and will be completed by October 13,
2007. This office is currently working and will continue to work in conjunction with
M/AA/Office of Security Services in order to identify additional sites that are in violation
of domain naming requirements. Internet searches play a prominent role in this effort as
LPA/PIPOS identifies Mission websites that are in violation of ADS 557 and section
207(f) of the E-Government Act of 2002.

2. USAID’s Funded Websites Were Not Always Marked With a Disclaimer
Statement

Recommendation No. 3: We recommend that USAID’s Bureau for Legislative and Public
Affairs/PIPOS, implement a process to provide oversight of USAID-funded websites to
ensure those websites have a disclaimer statement repudiating USAID’s responsibility of
the website contents.

This recommendation is confirmed by LPA/PIPOS. Prior to the publication of OMB
Memorandum M-05-04, the status of USAID project sites vis-à-vis LPA/PIPOS approval
was unclear, and many projects designed and built web sites without informing LPA of
their sites’ existence. These web sites were created prior to the requirement that project
web sites carry the required disclaimer. This has led to a considerable backlog of
project web sites that do not currently carry this required disclaimer.

Action Plan: LPA/PIPOS staff members have been instructed to include this item as part
of the standard checklist of required elements necessary for USAID-funded website
review. New sites that violate this requirement will be notified of the deficiency.
Webmasters of websites that are found to be in noncompliance will be contacted and
informed of this requirement. If this disclaimer is not added in a reasonable timeframe,
LPA/PIPOS will work with the General Counsel and the Cognizant Technical Officer for
the contract in order to enforce compliance. This recommendation will be completed by
December 1, 2007

3. Mission Subdomains of USAID’s Website Did Not Always Utilize the Required
Metadata Elements

Recommendation No. 4: We recommend that USAID’s Bureau for Legislative and Public
Affairs/PIPOS, take actions to ensure that mission subdomain website owners are aware
of the metadata requirements and add metadata where needed.

This recommendation is confirmed by LPA/PIPOS. Although meta-data has been a
required element of USAID mission sites for several years now, compliance has not
always been as rigidly enforced as it should have been. LPA/PIPOS is taking action to
correct this.



                                                                                         20
Action Plan: LPA/PIPOS staff members have been instructed to include this item as part
of the standard checklist of required elements necessary for USAID Mission website
approval. New sites that violate this requirement will not be approved. Webmasters of
already-approved Mission websites that are found to be in noncompliance will be
contacted and informed of this requirement. Mission websites that do not comply within
a reasonable timeframe will have their LPA/PIPOS approval rescinded and their sites will
be de-linked from the USAID/Washington web site. LPA/PIPOS will issue an agency-
wide notice immediately after issuance of the OIG report reminding USAID missions of
this requirement. This recommendation will be completed by September 31, 2007


4. Mission Subdomains of USAID’s Website Did Not Always Contain Date Stamp
on Their Webpages

Recommendation No. 5: We recommend that USAID’s Bureau for Legislative and Public
Affairs/PIPOS, implement a process to review mission subdomains of USAID’s website
on a definitive schedule to ensure last modified date is included on every webpage.

This recommendation is confirmed by LPA/PIPOS. This is a relatively new requirement
for USAID Mission Websites, originating in OMB Memorandum M-05-04, and many older
USAID mission sites were not designed with this requirement in mind. It will take some
time to retrofit older mission sites to comply with this requirement.

Action Plan: LPA/PIPOS staff members have been instructed to include this item as part
of the standard checklist of required elements necessary for USAID Mission website
approval. New sites that violate this requirement will not be approved. Webmasters of
already-approved Mission websites that are found to be in noncompliance will be
contacted and informed of this requirement. Mission websites that do not comply within
a reasonable timeframe will have their LPA/PIPOS approval rescinded and their sites will
be de-linked from the USAID/Washington web site. LPA/PIPOS will issue an agency-
wide notice immediately after issuance of the OIG report reminding USAID missions of
this requirement. This recommendation will be completed by October 31, 2007

5. Mission Subdomains of USAID’s Website Did Not Always Notify Users When
Leaving Government Website

Recommendation No. 6: We recommend that USAID’s Bureau for Legislative and Public
Affairs/PIPOS, implement a process to monitor mission subdomains of USAID’s website
to ensure that they use the good-bye script to inform users when leaving the government
site, as required.

This recommendation is confirmed by LPA/PIPOS. This was not required until the
publication of USAID’s linking policy in December 2005, and consequently many older
USAID mission sites were not designed with this requirement in mind. It will take some
time to retrofit older mission sites to comply with this requirement.

Action Plan: LPA/PIPOS staff members have been instructed to include this item as part
of the standard checklist of required elements necessary for USAID Mission website
approval. New sites that violate this requirement will not be approved. Webmasters of
already-approved Mission websites that are found to be in noncompliance will be
contacted and informed of this requirement. Mission websites that do not comply within


                                                                                     21
a reasonable timeframe will have their LPA/PIPOS approval rescinded and their sites will
be de-linked from the USAID/Washington web site. LPA/PIPOS will issue an agency-
wide notice immediately after issuance of the OIG report reminding USAID missions of
this requirement. This recommendation will be completed by October 7, 2007

6. Mission Subdomains of USAID’s Public Website Did Not Always Label Their
Files That Require Additional Software or Plug-Ins

Recommendation No. 7: We recommend that USAID’s Bureau for Legislative and Public
Affairs/PIPOS, implement a process to monitor Agency-funded websites to ensure files
that require additional software or plug-ins provide text descriptions of the file type and
file size.

This recommendation is confirmed by LPA/PIPOS. Although the requirements of
Section 508 of the Rehabilitation Act of 1973 require download links to necessary
software plugins on web pages that contain non-HTML content such as Adobe PDF and
Microsoft Word files, the requirements do not specifically state that the links to these files
need to be labeled as such.

Action Plan: LPA/PIPOS staff members have been instructed to include this item as part
of the standard checklist of required accessibility elements necessary for USAID Mission
website approval. New sites that violate this requirement will not be approved.
Webmasters of already-approved Mission websites that are found to be in
noncompliance will be contacted and informed of this requirement. Mission websites
that do not comply within a reasonable timeframe will have their LPA/PIPOS approval
rescinded and their sites will be de-linked from the USAID/Washington web site.
LPA/PIPOS will issue an agency-wide notice immediately after issuance of the OIG
report reminding USAID missions of this requirement. This recommendation will be
completed by November 31, 2007


Recommendation No. 8: We recommend that USAID’s Bureau for Legislative and Public
Affairs/PIPOS update technical guidance for mission websites to require labels for files
that need additional software or plug-ins.

As of this memorandum, the technical guidance for mission websites on the XWEB has
been updated to require labels for files that need additional software or plug-ins. This
recommendation was implemented on June 11, 2007.

7. USAID Did Not Compile an Inventory of USAID-funded Websites

LPA/PIPOS recognizes the need for a complete inventory of USAID-funded websites
and is working to achieve this goal. As part of the project undertaken to standardize the
web site review process, LPA/PIPOS has begun compiling an inventory of USAID-
funded Websites. This undertaking has been delayed and slowed due to Operational
Expense shortages that have kept the LPA Web Team understaffed and have not
allowed the hiring of a staff person dedicated to this task.

Action Plan: As capacity permits, the inventory is maintained and updated by
LPA/PIPOS staff. Due to the sheer volume of existing web sites, including web sites for
discontinued projects that are maintained as a public record and new sites that are


                                                                                           22
currently in development that have not yet been reported to LPA, it is likely that this
inventory will never be fully “complete.” It will serve, however, as the central repository
for all sites of which LPA is aware, and we aim to make it as complete as possible. This
recommendation will be completed by December 31, 2008.




                                                                                         23
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
